           Office of Inspector General




March 8, 2005

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Mail Backlogs at the Hartsfield-Jackson Atlanta International
         Airport (Report Number NL-AR-05-002)

During the Christmas holiday period, Wednesday, December 22, 2004, through
Tuesday, December 28, 2004, the United States domestic airline industry was disrupted
by bad weather, computer malfunction, and labor unrest. According to media reports,
the disruption—which involved Delta Airlines and U.S. Airways—delayed thousands of
passengers, resulted in 1,600 flight cancellations, and overwhelmed the commercial air
network with undelivered passenger luggage.

On Monday, December 27, 2004, we received a report from a Postal Service employee
that there were significant mail backlogs at the Hartsfield-Jackson Atlanta International
Airport, and that the delays involved Delta Airlines. We immediately notified officials at
Postal Service Headquarters, and at the time of our notification, the officials were
already aware of the backlogs and working to correct them.

This report presents results from our audit of air network operations (Project Number
04YG023NL000). Its purpose is to immediately follow-up with Postal Service officials
concerning the mail backlogs we observed.

Reacting to the information provided by the Postal Service employee, we conducted
several inspection visits to the Hartsfield-Jackson Atlanta International Airport and the
Postal Service Atlanta Air Mail Center. During our inspections, we observed mail
staged on the airport tarmac awaiting transportation by Delta Airlines. Initial media
reports published December 29, 2004, estimated that backlogged mail exceeded
100,000 pounds—or enough to fill at least 22 delivery vans. Our inspections indicated
that the mail could have been two to four times as much. As a result of Delta’s inability
to transport mail tendered to it, the Postal Service incurred unanticipated costs to




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
repossess and reroute the mail, including higher than normal contract expenditures for
“emergency hire” surface transportation.

The Postal Service contract with Delta Airlines allows the Postal Service to assess
damages when Delta causes mail tendered to it to be repossessed and rerouted.
Adverse weather was clearly a factor in disrupting the air transportation network—but
the airline’s computer failure, and other airline actions may have also contributed. We
recommended that the Postal Service make necessary inquiry into the conditions
involving Delta Airlines, and take corrective action, such as assessing contract
penalties, or other corrective action as may be appropriate.

Management agreed with our findings and recommendation. They stated that it was
their standard procedure to monitor conditions, and that their procedures were followed
in Atlanta during the holiday period. Management explained that during the period,
December 21-31, 2004, they repossessed 153,340 pounds of mail tendered to Delta
Airlines, and as a result, Delta lost approximately $49,069 in revenue and incurred
$36,091 in contract penalties. Management also explained that on February 2, 2005,
they were notified by Delta, that Delta would no longer route mail through Atlanta,
Cincinnati, or Salt Lake City, and that the action would mitigate future backlogs.

Management’s comments were responsive to our recommendation. The intent of our
report was to immediately notify management of the mail backlogs we observed so
management could take whatever action they considered appropriate under the
circumstances. We applaud management’s rapid reaction to the conditions in Atlanta,
and we consider the actions taken sufficient to address the issues we identified.
Management’s comments and our evaluation of these comments are included in this
report.

The Office of Inspector General (OIG) considers recommendation 1 significant and
closed because management’s timely corrective actions resolved the identified issues.
Consequently, the Postal Service can close the recommendation in their follow-up
tracking system.

We appreciate the cooperation and courtesies provided by your staff during our work. If
you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments
cc: Keith Strange
    Anthony M. Pajunas
    John C. Bonafilia
    Steven R. Phelps
Mail Backlogs at the Hartsfield-Jackson                                             NL-AR-05-002
 Atlanta International Airport


                                          INTRODUCTION
Background                      During the Christmas holiday period, Wednesday,
                                December 22, 2004, through Tuesday, December 28, 2004,
                                the United States domestic airline industry was disrupted by
                                bad weather, computer malfunction, and labor unrest.
                                According to media reports, the disruption—which involved
                                Delta Airlines and U.S. Airways—delayed thousands of
                                passengers, resulted in 1,600 flight cancellations, and
                                overwhelmed the commercial air network with undelivered
                                passenger luggage.




    Hartsfield-Jackson
Atlanta International Airport
    December 30, 2004.

 Mail staged on the airport
      tarmac awaiting
  transportation by Delta
          Airlines.




                                On Monday, December 27, 2004, we received a report from
                                a Postal Service employee that there were significant mail
                                backlogs at the Hartsfield-Jackson Atlanta International
                                Airport, and that the delays involved Delta Airlines. We
                                immediately notified Network Operations Management
                                officials at Postal Service Headquarters, and at the time of
                                our notification, officials were already aware of the backlogs
                                and were working to correct them.

Objective, Scope, and           Our audit objective was to determine whether air network
Methodology                     operations were effective, and to identify opportunities to
                                save money. The purpose of this report was to immediately
                                follow-up with officials concerning mail backlogs we
                                observed. We reported our observations immediately so



                                                 1
Mail Backlogs at the Hartsfield-Jackson                                            NL-AR-05-002
 Atlanta International Airport


                                management could take whatever action they consider
                                appropriate under the circumstances.

                                During our work, we inspected facilities at the
                                Hartsfield-Jackson Atlanta International Airport. Our initial
                                inspection was conducted December 28, 2004, followed by
                                subsequent inspections. During the various inspections, we
                                noted large quantities of mail staged on the airport tarmac.
                                We inspected the mail, observed, and photographed
                                operations, interviewed personnel at Postal Service
                                Headquarters and the Postal Service Atlanta Air Mail
                                Center. We examined Air Mail Center records, reviewed
                                published media reports, and recorded factual information
                                about conditions.




   We observed this mail
  staged for transportation
during a follow-up inspection
      January 7, 2005.




                                Because of time constraints and challenging operating
                                conditions, we could not weigh or independently verify the
                                weights estimated by on-site Postal Service employees, or
                                by Postal Service Headquarters officials. Consequently, we
                                relied upon their estimates, the limited documentation
                                immediately available to us, and we characterized the
                                information accordingly.

                                For similar reasons, and because Delta Airlines commingled
                                all mail in their sort process, we could not readily determine
                                whether the mail we observed was rerouted through Atlanta




                                                 2
Mail Backlogs at the Hartsfield-Jackson                                          NL-AR-05-002
 Atlanta International Airport



                               or originated locally, and we could not readily determine
                               what portion of the mail we observed was actually delayed.

                               We conducted work associated with this report from
                               December 2004 through March 2005 in accordance with
                               generally accepted government auditing standards and
                               included such tests of internal controls that we considered
                               necessary under the circumstances. We discussed our
                               observations and conclusions with appropriate management
                               officials and included their comments, where appropriate.

Related Audit                  On Tuesday, December 28, 2004, the United States
Coverage                       Department of Transportation announced that the
                               Transportation Inspector General would examine the
                               holiday weekend air system disruption involving Delta
                               Airlines and U.S. Airways, and that the examination would
                               be part of a larger review considering whether United States
                               air carriers were honoring their customer service
                               commitments.




                                               3
Mail Backlogs at the Hartsfield-Jackson                                            NL-AR-05-002
 Atlanta International Airport


                                           RESULTS
Mail Backlog and                During our airport inspections, we observed excessive
Delays                          amounts of mail staged on the airport tarmac awaiting
                                transportation by Delta Airlines. Initial media reports




Mail staged in Delta Airlines
        storage area
    December 28, 2004.




                                published December 29, 2004, estimated that the delayed
                                mail exceeded 100,000 pounds—or enough to fill at least
                                22 delivery vans. Our inspection indicated the volume might



  Estimates of the weight
    contained in each
       cart varied.

   Atlanta Airmail Center
    employees estimated
  that each cart contained
   approximately 1,200 to
        1,500 pounds.

Postal Service Headquarters
officials estimated that each
cart only contained between
    700 to 1,000 pounds.




                                have been two to four times as much. Specifically, we
                                observed about 150 carts at several airport locations, and
                                our examination of Atlanta Air Mail Center records indicated


                                                 4
Mail Backlogs at the Hartsfield-Jackson                                              NL-AR-05-002
 Atlanta International Airport


                                 that during the period December 22, 2004, through
                                 December 28, 2004, there may have been as many as
                                 360 carts staged at one time.

                                 Atlanta Air Mail Center employees estimated that each cart
                                 contained approximately 1,200 to 1,500 pounds. Postal
                                 Service Headquarters officials estimated less, stating that
                                 each cart only contained between 750 to 1000 pounds.
                                 Both headquarters and local officials also pointed out that it
                                 was uncertain whether all mail contained in the carts was
                                 actually delayed.




  On December 23, 2004, a
Postal Service customer paid
 $36.20 to Express Mail this
    Christmas package.

 On December 28, 2004, the
   Christmas package was
 sitting on the tarmac at the
      Hartsfield-Jackson
Atlanta International Airport.




                                 Notwithstanding discrepancies on volume estimates, or
                                 whether the mail was delayed or on time, the conditions
                                 associated with mail staged on the tarmac awaiting
                                 transportation were compelling, and they required
                                 immediate attention. On-site Atlanta Air Mail Center
                                 employees explained:

                                    •     The mail had been tendered to Delta and was in
                                          Delta’s possession.

                                    •     They were repossessing the mail and reassigning it
                                          to other transportation modes.

                                 Our inspection identified the mail as Express, Priority, and
                                 First-Class—much of it well beyond service commitment
                                 times—and some of it received from Postal Service
                                 customers as early as December 21, 2004. Postal Service



                                                   5
Mail Backlogs at the Hartsfield-Jackson                                                NL-AR-05-002
 Atlanta International Airport


                               officials stated that the backlog began December 22, 2004,
                               when a snow storm in Cincinnati, Ohio, forced Delta to
                               reroute flights through Atlanta. The officials explained that:

                                   •      The backlog worsened with a computer failure at
                                          Delta subsidiary Comair on December 25, 2004.

                                   •      High holiday passenger volume, passenger luggage,
                                          and mail volume contributed to the backlog.

                                   •      The Postal Service contract with airlines prioritized
                                          mail behind passengers and passenger luggage.

                                   •      When the air system approaches capacity, “mail gets
                                          bumped.”

                                   •      Delta stopped accepting mail from the Atlanta Air
                                          Mail Center on December 24 and December 25.




   This mail was staged
 awaiting transportation on
    December 30, 2004.




                               Atlanta Air Mail Center employees explained that:

                                   •      Their scanning equipment was not adequate for the
                                          amount of mail they were required to repossess and
                                          reroute.

                                   •      All mail—Express, Priority and First-Class—current
                                          and dated—was mixed—and expedited older mail
                                          was not going out first.


                                                    6
Mail Backlogs at the Hartsfield-Jackson                                              NL-AR-05-002
 Atlanta International Airport



                                   •      They were probably re-handling the same mail
                                          several times.

                                   •      Backlogged mail was so excessive; Delta ran out of
                                          carts and had to store mail on pallets in a warehouse.

                               As a result of Delta’s inability to transport the mail tendered
                               to it, the Postal Service incurred unanticipated costs to
                               repossess and reroute mail, including higher than normal
                               contract expenditures for “emergency hire” surface
                               transportation. Additional unanticipated costs to the Postal
                               Service also include the intangible cost of customer
                               dissatisfaction, and in the case of Express Mail, potential
                               reimbursement to customers because the Postal Service did
                               not meet its customer service commitment.

                               The Postal Service’s contract with Delta Airlines allows the
                               Postal Service to assess damages when Delta causes mail
                               tendered to it to be repossessed and rerouted. Adverse
                               weather was clearly a factor in disrupting mail—but so was
                               the airline’s computer failure, and other airline actions may
                               have also contributed.

Recommendation                 We recommend the vice president, Network Operations
                               Management, and the vice president, Southeast Area
                               Operations:

                                   1. Make necessary inquiry into the conditions involving
                                      Delta Airlines at the Hartsfield-Jackson Atlanta
                                      International Airport during the holiday period, and
                                      take corrective action, such as assessing penalties
                                      under the contract, or other corrective action as may
                                      be appropriate.

Management’s                   Management agreed with our findings and recommendation.
Comments                       They stated that it was their standard procedure to monitor
                               conditions, and that their procedures were followed in
                               Atlanta during the holiday period. Management explained
                               that during the period, December 21-31, 2004, they
                               repossessed 153,340 pounds of mail tendered to Delta
                               Airlines, and as a result, Delta lost approximately $49,069 in
                               revenue, and incurred $36,091 in contract penalties.
                               Management also explained that on February 2, 2005, they
                               were notified by Delta, that Delta would no longer route mail


                                                    7
Mail Backlogs at the Hartsfield-Jackson                                           NL-AR-05-002
 Atlanta International Airport


                               through Atlanta, Cincinnati, or Salt Lake City, and that the
                               action would mitigate future backlogs. Management’s
                               comments, in their entirety, are included in the appendix of
                               this report.

Evaluation of                  Management’s comments were responsive to our
Management’s                   recommendation. We did not audit repossessed mail
Comments                       volume or weight, lost revenue, or contract penalties. The
                               intent of our report was to immediately notify management
                               of the mail backlogs we observed so management could
                               take whatever action they considered appropriate under the
                               circumstances. We applaud management’s rapid reaction
                               to the conditions in Atlanta, we consider the actions taken
                               sufficient to address the issues we identified, and we
                               consider our recommendation closed.




                                                8
Mail Backlogs at the Hartsfield-Jackson              NL-AR-05-002
 Atlanta International Airport


                   APPENDIX. MANAGEMENT’S COMMENTS




                                          9
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          10
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          11
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          12
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          13
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          14
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          15
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          16
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          17
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          18
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          19
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          20
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          21
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          22
Mail Backlogs at the Hartsfield-Jackson        NL-AR-05-002
 Atlanta International Airport




                                          23
